a
I

sowm.  COQCKLE

i E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964

Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-840 and 19-1019

STATE OF CALIFORNIA, ET AL.,
Petitioners,
Vv.
STATE OF TEXAS, ET AL.,
Respondents.

STATE OF TEXAS, ET AL.,
Petitioners,
v.
STATE OF CALIFORNIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE LANDMARK LEGAL FOUNDATION IN SUPPORT OF FEDERAL RESPONDENTS
IN 19-840 AND PETITIONERS IN 19-1019 in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 3402 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Konse. Q. Looe Qu draw Ke. Chk
My Comm. Exp. September 5, 2023.

Notary Public Affiant 39

 
